<html>
<title> - [H.A.S.C. No. 111-110]ASSESSING THE GUAM WAR CLAIMS PROCESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 111-110]

                 ASSESSING THE GUAM WAR CLAIMS PROCESS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            DECEMBER 2, 2009


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE
58-101                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
NEIL ABERCROMBIE, Hawaii             MAC THORNBERRY, Texas
SILVESTRE REYES, Texas               WALTER B. JONES, North Carolina
VIC SNYDER, Arkansas                 W. TODD AKIN, Missouri
ADAM SMITH, Washington               J. RANDY FORBES, Virginia
LORETTA SANCHEZ, California          JEFF MILLER, Florida
MIKE McINTYRE, North Carolina        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
DAN BOREN, Oklahoma

                    Erin C. Conaton, Staff Director
                Julie Unmacht, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant













                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, December 2, 2009, Assessing the Guam War Claims 
  Process........................................................     1

Appendix:

Wednesday, December 2, 2009......................................    29
                              ----------                              

                      WEDNESDAY, DECEMBER 2, 2009
                 ASSESSING THE GUAM WAR CLAIMS PROCESS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Babauta, Hon. Anthony M., Assistant Secretary of the Interior for 
  Insular Affairs, U.S. Department of the Interior...............     3
Barcinas, Tom, Survivor of Guam's World War II's Occupation......    12
Blas, Hon. Frank F., Jr., Senator, 30th Guam Legislature.........     9
Pangelinan, Hon. Vicente C., Senator, 30th Guam Legislature......     7
Tamargo, Hon. Mauricio J., Former Chairman, Guam War Claims 
  Review Commission..............................................     5

                                APPENDIX

Prepared Statements:

    Babauta, Hon. Anthony M......................................    33
    Barcinas, Tom................................................    65
    Blas, Hon. Frank F., Jr......................................    51
    Pangelinan, Hon. Vicente C...................................    42
    Tamargo, Hon. Mauricio J.....................................    37

Documents Submitted for the Record:

    Testimony of Felix P. Camacho, Governor of Guam..............    73

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    77
 
                 ASSESSING THE GUAM WAR CLAIMS PROCESS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, December 2, 2009.
    The committee met, pursuant to call, at 1:20 p.m., in room 
HVC-210, Capitol Visitor Center, Hon. Ike Skelton (chairman of 
the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good afternoon.
    We welcome our witnesses today. And with us, we have as 
witnesses Anthony Babauta, Assistant Secretary of Interior for 
Insular Affairs for the Department of Interior; and the 
Honorable Mauricio Tamargo, the former Chairman of the Guam War 
Claims Review Commission; the Honorable Vicente Pangelinan, 
Senator of the 30th Guam Legislature; the Honorable Frank Blas, 
Junior, who is also a Senator of the 30th Guam Legislature; and 
Mr. Tom Barcinas, a survivor of the World War II occupation of 
Guam.
    Appreciate your being with us here.
    This important matter--and as you know, my colleague, our 
friend the gentlelady from Guam, Madeleine Bordallo, has worked 
tirelessly on this issue for many years, and she is such an 
outstanding legislator. We appreciate her keen interest and her 
recommendations in this regard.
    She has introduced legislation on Guam war claims that has 
passed the House twice. It was also recently included in the 
House-passed National Defense Authorization Act (NDAA) for next 
year.
    Today I hope you will address some of the objections and 
provide us with any other information that might be helpful for 
possible future considerations of the Guam war claims matter.
    And I hope Mr. Tamargo will share with us the findings and 
recommendations of the Guam War Claims Review Commission and 
that others will clarify any questions that we might have.
    It is important, and as any relevant proceeding--precedent 
for providing the conversation at issue and your thoughts on 
how the Guam war claims matter may impact United States 
military buildup on Guam which, of course, is the issue at 
hand.
    Of course, having survived the brutal occupation of Guam 
during the Second World War, we are fortunate to have the 
unique personal perspective of Mr. Barcinas on some of the 
issues before us today, and we appreciate him being with us.
    Before we get our testimony, I ask my friend, my colleague, 
the ranking member from California, Mr. McKeon, if he has 
comments.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman.
    I note that many of our witnesses came all the way from 
Guam to be here today. Having traveled to Guam last February 
with Chairman Skelton and Ms. Bordallo, I know you have an 
important story to tell because you have come a long way.
    I expect our hearing today will put into motion the 
legislative changes needed to allow the citizens of Guam a 
reasonable opportunity to submit claims for damages arising 
from the Japanese occupation during World War II.
    As part of our conference agreement during the recently 
enacted National Defense Authorization Act for the Fiscal Year 
2010, the House and Senate Armed Services Committees each 
agreed to hold hearings on this issue.
    In point of fact, the House passed H.R. 44, which 
authorizes the payment of Guam war claims. It is valid 
legislation that the Senate could take up and pass today if 
they chose to take action during this Congress.
    As a matter of general principle, most would agree that it 
is rarely prudent to review 63-year-old claims, especially when 
we contemplate compensating relatives of the survivor who 
actually suffered the damages.
    Even though I was initially skeptical of the merits of this 
legislation, I think the people of Guam have made a good case 
that they did not have a reasonable opportunity to file their 
claims at the end of the war. Indeed, they hardly had any 
opportunity at all.
    Congress recognized the suffering and patriotism of the 
people of Guam by enacting the Guam Meritorious Claims Act 
shortly after the end of the war in 1945, much earlier than 
subsequent war claim measures were enacted for the Philippines, 
Wake Island, the Aleutian Islands and the Northern Marianas.
    Even though the island was ravaged by the war, had few 
roads and poor communications, Guam war claim regulations were 
established on May 1946, setting a claim deadline of December 
1, 1946. That is where things stand today.
    If a Guam citizen did not submit a claim by December 1, 
1946, 63 years ago today, the citizen missed out. There were no 
extensions. For these reasons, I voted for H.R. 44 and support 
its enactment into law.
    I don't think we can ever make anything fair and equal in 
this world, but we should give the courageous people of Guam a 
fair chance to make their claims.
    Other people on other islands occupied by the Japanese had 
sufficient time to document their damages under far more 
favorable conditions. The people of Guam deserve a second 
chance.
    You are represented by a great representative, Ms. 
Bordallo, who has done a great job of telling all of us your 
case, taking us to Guam, and I enjoyed serving with her on the 
committee.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. McKeon.
    Let me mention that the speaker and the governor of Guam 
were invited to be with us today, and although they can't 
attend, I understand that they will be submitting statements 
for the record.
    [The statement of Governor Camacho can be found in the 
Appendix on page 73. The Speaker's statement was not available 
at the time of printing.]
    The Chairman. With that, we will go to the Assistant 
Secretary of Interior, Mr. Anthony Babauta, please.

 STATEMENT OF HON. ANTHONY M. BABAUTA, ASSISTANT SECRETARY OF 
   THE INTERIOR FOR INSULAR AFFAIRS, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Secretary Babauta. Thank you very much, Mr. Chairman and 
members of the Committee on Armed Services.
    I am pleased to be here today to aid in your assessing of 
the Guam war claims process. It has been nearly 68 years since 
the Imperial Japanese military forces invaded and occupied the 
U.S. territory of Guam, subjecting its residents to 33 months 
of horrific pain and death.
    Through it all, however, the largely native population, the 
Chamorro, remained ever loyal to the United States. In prayer 
and song, all longed for the return of the Americans.
    In a monumental operation, U.S. naval ships bombarded the 
island and ground forces stormed the beaches of Asan and Agat 
on June 21, 1944. It took nearly two months to dislodge a well-
hidden enemy, but Guam was finally secured on August 10, 1944.
    Though our forces had been tempered by fierce battle 
throughout the Pacific, what they found and learned of Guam's 
occupation was harrowing.
    Fellow Americans, innocent civilians, were subjected to 
summary executions, beheadings, rape, torture, beatings, forced 
labor, forced march and internment.
    Approximately 1,000 people had died due to the brutality of 
occupation. Among current members of the American political 
family, no state, territory or group of civilians suffered any 
similar fate during World War II as did the people of Guam.
    In November 1945, just after the surrender of Japan, the 
U.S. Congress passed the Guam Meritorious Claims Act of 1945. 
Other areas and people occupied by Imperial Japanese military 
forces were also granted relief by Congress at later dates.
    Guam, however, was not included in subsequent legislation 
under the mistaken belief that the Congress had already taken 
care of Guam.
    Over the years, it became evident that although Guamanians 
may have been first to receive relief, they may not have 
received treatment equivalent to that later given other 
Americans in Japanese-held areas.
    For nearly 30 years, beginning in the 1970s, Members of 
Congress from Guam introduced legislation regarding Guam war 
claims. It was not until December 10, 2002 that the Guam War 
Claims Review Commission Act became Public Law 107-333.
    Under the Act, the Secretary of the Interior appointed the 
five-member commission, all of whom had experience relevant to 
the task at hand.
    Mr. Mauricio Tamargo, who was and is Chairman of the 
Foreign Claims Settlement Commission, was selected to be 
chairman of the Guam Commission. This fortuitous connection was 
of great benefit to the Guam commission because Mr. Tamargo was 
able to contribute not only his own expertise but that of 
members of his staff to the Guam war claims review effort.
    The primary task of the Guam Commission was to determine 
whether there was parity of war claims paid to the residents of 
Guam under the Guam Meritorious Claims Act that compared with 
the awards made to other similarly affected U.S. citizens or 
nationals in territory occupied by the Imperial Japanese 
military forces during World War II.
    The Guam commission met on numerous occasions, held lengthy 
hearings both in Guam and in Washington, D.C., and exhaustively 
analyzed relevant information and materials before committing 
its collective judgment to paper in its 2004 report on the 
implementation of the Guam Meritorious Claims Act of 1945.
    The report is, indeed, comprehensive and carefully stated 
32 findings and developed 6 recommendations for the Congress.
    Included in the recommendations are, one, $25,000 for the 
heirs of Guam residents who died during Japanese occupation; 
two, $12,000 for personal injury, including rape and 
malnutrition, forced labor, forced march and internment, to 
each person who was a resident of Guam during the Japanese 
occupation and who personally suffered or to the eligible 
survivors; $5 million for grants to the Department of the 
Interior for research, education and media to memorialize the 
events of the occupation and the loyalty of the people of Guam.
    Congresswoman Bordallo introduced legislation which drew 
from the report, and her legislation has passed the House of 
Representatives. However, it has failed to receive the support 
that would see it through to enactment that we believe it 
deserves.
    As members of the Committee on Armed Services, you are 
aware of the bilateral agreement between the U.S. and Japan 
under which 8,000 Marines and approximately 9,000 dependents 
will move from Okinawa to Guam.
    With planning for the military buildup under way, many hope 
that the passage of H.R. 44, the World War II Loyalty 
Recognition Act, would exhibit goodwill on the part of the 
Federal Government and would act as reciprocity for the 
goodwill and loyalty the people of Guam have always exhibited 
and will exhibit by hosting the Marines.
    It is for the reasons of fairness, equity and justice that 
the Department of the Interior expressed a formal policy 
position on behalf of the Administration in September 22, 2009 
letters to Chairman Skelton and Chairman Levin, urging that 
H.R. 44 be included in the conference report on the National 
Defense Authorization Act for fiscal year 2010.
    The Department continues to strongly support enactment of 
H.R. 44, which would restore the dignity lost during occupation 
and heal wounds bound in the spirits of those who survived. For 
the 1,000 who passed by saber or savagery, their memory remains 
in stories of principle, courage and sacrifice.
    The island of Guam has undergone tremendous change since 
World War II, and it will continue as its strategic value is 
realized in the 21st century. The opportunity to reach back and 
provide equity, parity and justice is manifested in the Guam 
World War II Loyalty Recognition Act.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Secretary Babauta can be found 
in the Appendix on page 33.]
    The Chairman. Thank you very much.
    Before I call on Mr. Tamargo, let me point out that we are 
joined today for the very first time by our colleague from New 
York, the Honorable Bill Owens, from New York's 23rd district. 
He represents Fort Drum and will fill the large shoes left by 
our good friend the current Secretary of the Army, John McHugh.
    We welcome you and hope you enjoy the committee, Mr. Owens.
    Mr. Owens. Thank you.
    The Chairman. Mr. Tamargo.

 STATEMENT OF HON. MAURICIO J. TAMARGO, FORMER CHAIRMAN, GUAM 
                  WAR CLAIMS REVIEW COMMISSION

     Mr. Tamargo. Chairman Skelton, members of the committee, 
thank you for the opportunity to appear before you today to 
speak about the work of the Guam War Claims Review Commission 
which the Commission completed on June 9, 2004.
    I am Mauricio Tamargo, chairman of the Foreign Claims 
Settlement Commission in the Department of Justice. I appear 
before you today as former Chairman of the Guam War Claims 
Review Commission, an advisory body established by the 
Secretary of Interior under the Guam War Claims Review 
Commission Act, Public Law 107-333, which was enacted in 
December 2002.
    I served in that capacity on a part-time basis from October 
3, 2003 until the Review Commission went out of existence in 
June of 2004. The vice chairman of the review commission was 
the late Antonio Unpingco, former speaker of the Guam 
legislature.
    And the other members of the Commission were the Honorable 
Robert Lagomarsino, former Member of Congress from Ventura, 
California; the Honorable Benjamin Cruz, former Chief Justice 
of the Guam Supreme Court; and Ms. Ruth Van Cleve, former 
career senior executive in the Department of the Interior.
    The Guam War Claims Review Commission was established to 
determine whether there was parity of war claims paid to the 
residents of Guam under the Guam Meritorious Claims Act as 
compared with awards made to other similarly affected U.S. 
citizens or nationals in territories occupied by Imperial 
Japanese forces during World War II, and to advise on any 
additional compensation that may be necessary to compensate the 
people of Guam for death, personal injury, forced labor, forced 
march and internment suffered from the Japanese occupation of 
the island during the war.
    The island of Guam, a U.S. territory, was attacked by 
Japanese forces on December 8, 1941, the same day as the attack 
on Pearl Harbor but on the other side of the International Date 
Line.
    Two days later, on December 10, the Japanese forces overran 
and occupied the island. What followed after that was a period 
of 32 months of cruel, brutal and barbaric oppression of the 
people of Guam by the Japanese Imperial occupation forces.
    Great numbers of islanders were beaten, whipped. Many of 
the women were raped. There were numerous beheadings. In the 
last months of the occupation, nearly all of the islanders were 
subjected to forced labor, forced marches and were herded into 
concentration areas, causing them to suffer acutely from 
malnutrition, exposure and disease.
    After beginning the liberation of Guam on July 21, 1944, 
United States forces declared Guam secure on August 10, 1944 
and immediately began organizing it as a base from which to 
launch air and sea attacks in the direction of the Japanese 
homeland.
    At the same time, the Japanese devoted as much material and 
effort as could be spared to constructing shelter for the local 
citizens.
    Within weeks after the termination of hostilities, Congress 
then enacted the Guam Meritorious Claims Act of 1945, 
authorizing and directing the U.S. Navy to provide immediate 
relief to the people of Guam. This included the U.S. providing 
monetary payments to the people of Guam.
    In undertaking its task, the Guam War Claims Review 
Commission conducted research on the administration of the Guam 
Meritorious Claims Act conducted by the U.S. Navy's Land and 
Claims Commission and compared that statute and the claims 
program conducted pursuant to it with the following statutes 
and the claims programs conducted pursuant to them.
    Those other statutes were the Philippine Rehabilitation Act 
of 1946, the War Claims Act of 1948, including the 1952, 1954, 
1956 and 1962 Wake Island amendments to the Act, as well as the 
Title 2 amendment to the Act added in 1962, as well as 
Micronesian Claims Act of 1971 and the Aleutians and Pribilof 
Islands Restitution Act of 1988.
    We also conducted hearings on Guam at which we heard moving 
testimony from survivors of this terrible period in history. We 
then held a legal expert conference in Washington, D.C., at 
which relevant legal issues were discussed.
    Finally, we submitted a report to the Secretary of Interior 
and to specific congressional committees summarizing our work.
    The Review Commission's findings and recommendations are 
set forth in chapters six and seven of the Review Commission's 
final report. I stand by those findings and recommendations and 
continue to believe strongly that they should be implemented.
    I would also like to say that those of us who came to the 
review commission from the Foreign Claims Settlement Commission 
were pleased to have had the opportunity to use our familiarity 
and expertise regarding war claims issues to assist in the 
implementation of this important work.
    As former chairman of the Guam War Claims Review 
Commission, I wish to also say that I strongly support H.R. 44, 
the Guam World War II Loyalty Recognition Act, as it seeks to 
come close to implementing the recommendations of the Review 
Commission report.
    Mr. Chairman, this concludes my statement. I will be happy 
to respond to any questions that you or your other members of 
the committee may have. Thank you.
    [The prepared statement of Mr. Tamargo can be found in the 
Appendix on page 37.]
    The Chairman. Thank the gentleman.
    Mr. Pangelinan, please, the Honorable Mr. Pangelinan, 
Senator.

  STATEMENT OF HON. VICENTE C. PANGELINAN, SENATOR, 30TH GUAM 
                          LEGISLATURE

    Mr. Pangelinan. Honorable Chairman Ike Skelton and esteemed 
members of the Armed Services Committee, I am Vicente Cabrera 
Pangelinan, a senator of I Mina' Trenta Na Liheslaturan Guahan.
    I testify before you on behalf of those voices silenced by 
fear, incapacitation or death. Today we come before you, our 
liberators from a war not of our own making and not waged to 
suit our needs, thankful and grateful.
    We are here to seek justice and not merely in pursuit of 
recognition. Despite all the rejections of the past 60 years, 
we, as we did in war, we will do in peace. We will not beg.
    We stand tall and tell you we have earned the justice we 
seek. We still have faith that America is the one place on 
earth where justice will prevail. We look to this committee and 
this Congress to prove our faith is not in vain.
    I pray that we will finally see action, because we have had 
our fill of, ``We hear you, we understand your pain, we 
sympathize with how you were treated,'' and I am referring to 
the Japanese treatment of the Chamorros during the occupation 
of Guam.
    I am here today, traveling over 7,938 miles, crossing half 
the world's time zones, coming from tomorrow to be here today, 
on behalf of the people of Guam. I am here to plead for not 
just mere recognition of their sacrifices but seeking justice 
for how they were treated, not just by the enemy occupiers 
during the war but the liberators after the war.
    The people of Guam deserve more than perfunctory 
recognition. The Chamorros of Guam deserve action, action that 
our people will never forget. Time cannot heal all wounds, and 
the Federal Government knows this all too well in the Pacific 
area.
    A history of inaction continues the festering of the wounds 
earned by unmet obligations. We are not afraid to tell you, 
``Basta, basta, basta,'' ``No more, no more, no more.'' We are 
no longer a generation rooted in the gratefulness of a 
liberation. We are a generation whose hearts have been hardened 
by unkept promises and transgressions unresolved.
    Knowing this, you have no reason to be surprised if you are 
met with arms raised in opposition rather than arms open to 
accept your plans to take our lands again, change our way of 
life and to once again suit your needs.
    While today we address war reparations, it is not the only 
issue that remains unresolved between the people of Guam and 
the United States.
    The United States plans to expand military activities on 
Guam, placing our lands and resources at certain risk of 
environmental and ecological harm, yet our lands remain 
contaminated and wait for remediation and cleanup from an 
earlier occupation.
    The damage done to our people's health from the dreaded 
disease of cancer, which befalls our people at a greater rate 
than almost any other community in the country, from proven 
exposure to radiation fallout, continues.
    And we are made to wait for inclusion in programs to heal 
these wounds available only to our continental cousins.
    Self-determination continues to be denied to the native 
inhabitants and not supported by any action until just a few 
weeks ago with a hearing on H.R. 3940.
    When we finally see action in the return of lands taken 
after the war, albeit 45 years later, we see even quicker 
action to reverse the course.
    Today we again face the taking of our lands to support the 
relocation of 8,000 Marines and over 85,000 of their dependents 
that will come to support the military buildup on Guam. They 
are being relocated to relieve the burden of hosting the 
Marines by the people of Okinawa.
    If there is a burden to hosting the Marines being borne by 
the people of Okinawa, there will be a burden associated with 
the hosting of the Marines by the Chamorro people.
    I ask that you listen to a generation savoring freedom 
after three years of brutal occupation, the gratefulness for 
liberation they generously showered upon America.
    Hear it, understand it, sympathize with it, but do not 
think for a moment of taking advantage of it again and do not 
accept it by its continued inaction.
    I recognize your responsibility and heavy obligation to act 
on evidence that there were disparities in the treatment of 
people of Guam in war claims compensation compared to other 
compensation programs.
    Do not focus on the claims that were filed and the payments 
made. Listen to the stories. See and hear of the claims not 
filed and paperwork not submitted as Chamorros told each other 
the value placed upon their lives, their homes and the 
suffering, and of the dollars claimed and the pennies paid and 
the decision that it was not worth it.
    The issue of whether the people of Guam were treated fairly 
by those who had authority over the process of claiming and 
paying for taking advantage of the lands, the damages inflicted 
upon their lives and the destruction of their belongings has 
been studied literally to death.
    Many of those harmed have succumbed to the injuries after 
the war, and some just were not able to outrun father time. 
From there, first, there was a Hopkins Commission in 1947 and 
now the War Claims Commission.
    Both these reports issued by commissions concluded 
something more needs to be done to make things right for the 
people of Guam, to give them justice and peace in the remaining 
years of their lives.
    The findings of these commissions state that in the process 
of resolving their claims, the people of Guam were misinformed 
and mistreated. For the people of Guam, there was no parity. 
There is no justice to bring them with peace at America.
    Each time the issue has come before this august body, the 
recommendations remain the same. The people of Guam deserve 
recognition for loyalty they displayed to the United States in 
the face of a brutal enemy and the atrocities inflicted upon 
them.
    Now we have the findings of a federal commission, which 
found that there was no parity in the treatment of the people 
of Guam and others in compensation programs of those similarly 
situated.
    Throughout our island, we still see evidence of Guam's 
historical struggle. Concrete bunkers remain on our seashores, 
heavy artillery become landmarks overgrown with jungle, and war 
zones claiming the lives converted to national parks.
    Chamorros throughout our island can attest to the plight of 
their ancestors, forced to march to concentration camps in 
Manenggon and to massacres in the case of Tinta, Faha and Fena.
    The Chamorros of Guam do not expect to turn back time, 
change history or alter the future. But recognition of a 
people's sacrifice in upholding the honor of America in the 
face of a brutal enemy, maintaining their dignity in their 
fight for liberty and demonstrating that steadfast loyalty 
remains priceless.
    That is the evidence of everything our founding fathers 
envisioned, everything thousands of young American soldiers 
died on the shores of Guam's beaches, and that will memorialize 
our history, bring peace to a dying generation, and alter the 
future of new generations.
    We, too, fought for our freedom or held our dignity and 
earned this compensation. We know we deserve it. And yes, we 
want all America to understand it. With faith in democracy and 
the will of our leaders and our people, we slowly close one era 
while educating the next.
    I believe, as Dr. Martin Luther King, Jr., remarked, we 
will not be satisfied until justice rolls down like waters and 
righteousness like a mighty stream. The book of history is 
never complete. The writing continues. The judgment will come.
    And while it may never be too late to make a difference, I 
ask that you correct this injustice today. Not a single 
generation should again pass without sharing in the justice 
deserved.
    Let there be no more naysayers. The Congress endorses it. 
The Administration supports it. And our Nation's place in 
history as a just and caring government demands it.
    Today I am grateful you invited all of us to the table. Let 
no more time pass. Lady justice and the people of Guam must not 
be made to wait any longer. Thank you yan si yu'os ma'ase.
    [The prepared statement of Mr. Pangelinan can be found in 
the Appendix on page 42.]
    The Chairman. Thank you very much.
    Next, Frank Blas, Jr., Senator.
    Mr. Blas.

   STATEMENT OF HON. FRANK F. BLAS, JR., SENATOR, 30TH GUAM 
                          LEGISLATURE

    Mr. Blas. Chairman Skelton, members of this esteemed 
committee, thank you for the opportunity to provide in this 
hearing testimony in this hearing on assessing the Guam war 
claims process.
    My name is Frank Flores Blas, Jr., a senator with the 30th 
Guam Legislature and son to Frank Flores Blas and Lydia Ada 
Calvo, grandson to Vicente Cepeda and Beatrice Flores Blas and 
Jose Leon Guerrero and Herminia Ada Calvo, and son-in-law to 
Regina Manibusan Reyes.
    I mention my relations because they were survivors of the 
horrors and atrocities of the Japanese occupation of Guam 
during World War II.
    I mention them because for them, along with the thousands 
of Chamorros who suffered as well or died during the 
occupation, I come before you to ask of closure to their 65-
year-old struggle for recognition of their loyalty to the 
United States in the face of a brutal enemy force.
    While preparing this testimony, I thought it best to speak 
to survivors to get their advice on what to say. When I told 
them that the hearing was on assessing the war claims process, 
all of them started with a two-word question, ``What process?''
    Many had informed me that immediately after the war they 
had heard that the United States Government wanted details of 
how they were treated and of the savagery they witnessed. Some 
were told that because of what happened to them they would be 
compensated but, more importantly, that their struggles would 
not be forgotten.
    Still, there were others who did not know at the time that 
their Nation's government wanted to know of their sufferings, 
because either the information never got to them or they were 
too busy trying to rebuild their lives.
    Nevertheless, every survivor that I spoke to expressed that 
despite what they were told or what they heard being told, 
nothing ever happened.
    In December of 2003, almost six years to this date, a few 
of the survivors who were still alive at the time gave 
testimony to the Guam War Claims Commission.
    Survivors like my mother-in-law, Regina Manibusan Reyes, 
Mr. Edward Leon Guerrero Aguon, Mr. Jose Afaisen Pinaula, Mr. 
Juan Martinez Unpingco, and Mrs. Rosa Roberto Carter gave their 
personal accounts of the beatings and humiliations they 
endured, the slavery they were subjected to and the beheadings 
they were forced to witness.
    They told of the nightmares that they still have about how 
their childhood was taken away and about how they did not know 
how to play with their grandchildren today because they were 
stripped of the opportunity to grasp that concept in order to 
survive.
    Today, Mr. Chairman, if you were to ask these same people 
to come before this committee to provide their testimony again, 
many of them will not be able to make it because they have 
since passed on.
    One such survivor is Mr. Edward Leon Guerrero Aguon. In 
2003, he ended his testimony by saying, ``I am 77 years old. If 
you ask me again in another 10 years, I may not be here to 
testify.'' Mr. Aguon passed away on September 28, 2007.
    Mr. Chairman, as I had been told to ask at this hearing, 
what war claims process does Congress want to assess? My people 
have told their stories time and time again.
    Our delegates to Congress, starting with the late Antonio 
B. Won Pat, then retired Brigadier Ben G. Blaz, Dr. Robert A. 
Underwood, and now the Honorable Madeleine Z. Bordallo have all 
made Guam's war claims a priority during their tenures. For 65 
years my people have been waiting. When will it end?
    There is a demoralizing sentiment that is growing amongst 
the survivors. This sentiment is that the United States 
Government is waiting for all of the war survivors to pass on 
so that this issue will not have to be dealt with.
    Although my upbringing has taught me to apologize for this 
statement, I choose not to and challenge our Nation's leaders 
to prove that opinion wrong.
    I thank you for keeping your commitment, Mr. Chairman, to 
hold this hearing in order to move this issue along.
    I can tell you with confidence that if given the 
opportunity, the physical stamina and the financial resources 
to do so, many of the survivors will come before this committee 
or any other panel one more time in the hopes that this time 
they will have closure to their struggle.
    But because many of the people whom I speak of could not be 
present today or will not be able to make the long trip it 
takes to get from Guam to here, I humbly and very respectfully 
request that you have continued hearings on Guam or require 
that any future process for the war claims be held on Guam as 
well.
    Attached to my testimony today are newspaper articles of 
the individual accounts of four of Guam's war survivors.
    As you read through their stories, I also ask that you look 
at their faces. It is said that a picture is worth a thousand 
words. I will tell you that at the time their photos were being 
taken, they were not asked to pose or provide a specific 
expression. They were only told to be comfortable.
    Comfortable, Mr. Chairman, as I am providing this testimony 
to you, forces beyond the control of my island's people are 
mobilizing the largest and most expensive peace-time military 
buildup on Guam.
    And I can confidently say that if you ask any Guam resident 
if they knew the two countries who partnered in this activity, 
they will all say the United States and Japan. This leads to an 
uncomfortable conversation that will ensue if you ask that 
question to a survivor of the war.
    When word of the inclusion of Guam's war claims bill into 
the defense authorization act was received on Guam, many of our 
survivors were cautiously optimistic. Their unenthused reaction 
bewildered me at first.
    I was perplexed as to why there as no excitement with the 
prospect that their 65-year wait will end. Even the efforts to 
drum up support through petition drives and letter-writing 
campaigns received lackluster responses.
    Then one tired and dejected war survivor told me something 
that made sense of the reactions I was observing. He told me, 
``The United States and Japan don't give a damn about the 
Chamorro people. Putting the war claims into a bill that would 
help the military build their bases on Guam, to help Japan out, 
just puts donne,'' or, in my language, pepper, ``into the 
wound. With war claims, I will believe it when I see it.''
    When news that the war claims provision was stricken from 
the final version of the bill, obviously there was 
disappointment. Unfortunately, there was also recurred feeling 
of dejection and the emergence of a sentiment uncommon amongst 
survivors, resentment.
    As one survivor has directed me to ask, ``You want me to be 
comfortable with the building of military bases on my island 
with Japan when you haven't even recognized what Japan did to 
us during the war?''
    This survivor further requested that I say, ``Enough talk 
and enough planning. Deal with our war claims before you start 
to build your bases.''
    Comfort, this word best describes what I am asking for the 
people of Guam. Give my man'amko, the elderly people of my 
island, the peace and the peace and comfort they so rightfully 
deserve before they become just a memory of a Chamorro people 
who suffered and died yet remained loyal and patriotic.
    Give my man'amko the comfort of knowing that even after all 
these years their suffering has not gone unnoticed.
    Thank you for giving me this opportunity to speak for those 
who cannot be here and for those who can never speak again.
    [The prepared statement of Mr. Blas can be found in the 
Appendix on page 51.]
    The Chairman. Thank the gentleman.
    Mr. Barcinas.

 STATEMENT OF TOM BARCINAS, SURVIVOR OF GUAM'S WORLD WAR II'S 
                           OCCUPATION

    Mr. Barcinas. Thank you.
    Good morning yan Hafa Adai, Chairman Skelton and honorable 
members of the House Armed Services Committee. My name is Tom 
Barcinas. I was born on November 14, 1937 in Malesso, in the 
southern part of the island, a very small community.
    Through the grace of God, I survived World War II. But like 
so many others who lived through those days, lived through the 
war, who have since died, I am quickly getting old, as you can 
see. So many who lived through the war are advancing in age, 
and so many have passed on without closure to the issues 
arising because of the war.
    Mr. Chairman, in 1946 there were approximately 20,000 
survivors enumerated by the U.S. naval personnel who were part 
of the liberating forces. Today it is estimated that fewer than 
9,000 are still living.
    In the month of November, this last month, 12 more 
individuals living prior to July 21, 1944 died. Because of 
advancing age, more are passing away at alarmingly quicker 
rates.
    Just yesterday I left a warm tropical island, traveled for 
22 hours to be here in this cold climate. I will always 
remember this December as I made the hard call to appear before 
you, hopeful that the Members of Congress will find it in their 
hearts and conscience to bring closure to the people of Guam 
who, 65 years ago, proved beyond any doubt that they are loyal 
Americans.
    I am very honored to be here in our Nation's great capital, 
the fulcrum of mankind's dedication to peace, justice and 
fairness of all people. I have been looking forward to this 
very memorable experience since the day I received your 
invitation to appear before this very important committee.
    I am even more eager to bring back to my fellow survivors 
good news of hope that this closure they have waited for for 65 
years may soon be a reality. Very vividly, like those who 
testified before the War Claims Review Commission nearly six 
years ago to this day, I remember the occupation of my 
homeland.
    Memories such as those never leave you, no matter how old 
you get and no matter how hard you try to forget. Those 
survivors spoke eloquently about their experiences, bravely 
stating their pain as they recalled the fear of torture, death 
which filled every waking moment during those dark days.
    Some relive the horrors of public beheadings. Some recall 
the massacres of Tinta, Famha and Chiguian massacres--mass 
massacres at that, where they witnessed the ruthless slaughter 
of innocent neighbors, brothers and sisters.
    The records are full of vivid and graphic details of the 
atrocities endured by the Chamorro people over 30 months of 
occupation from December 8, 1941 to July 1944. I do not have to 
relate them to you, as they are always available for your 
review.
    What is also available for your review, hopefully, so that 
you will never forget, are the records of the United States 
indemnifying Japan from any responsibility or obligation to 
make right the lives of the Chamorro people for the atrocities 
they endured at the hands of the Japanese soldiers frenzied by 
thoughts of their impending doom.
    With the stroke of a pen, America told Japan, ``Don't worry 
about what happened on Guam, no one will ever hold Japan 
responsible.''
    However, in contrast, America did assume full 
responsibility for the making right the lives of the Alaskan 
Aleuts evacuated from their island homes in anticipation of 
invasion by the Japanese forces.
    Why did it have to be different for the Chamorro people who 
were abandoned on their island while American military 
personnel and dependents were evacuated because invasion and 
occupation by Japanese forces was imminent?
    In 1988, 42 years after the end of the war, America assumed 
full responsibility for injustices served upon Japanese 
Americans by Americans who herded them into concentration camps 
during the war to ensure their personal safety from perceived 
assumed potential dangers.
    Housed in warm quarters with sanitary facilities, they had 
a roof over their heads, ate three meals a day and had medical 
attention.
    Eight thousand miles to the west, we lived on the banks of 
Ylig River, slept on dirt floors and, because it was the rainy 
season, many days in unyielding mud. We never knew where our 
next meal would come from. And because of a lack of medical 
attention and sanitary facilities, many, too many, children 
died and were buried in unmarked mass graves.
    It was righteous of America to assume responsibility for 
bringing closure to the Alaskan Aleuts and Japanese Americans. 
So why does America hesitate to do the same for the people of 
Guam?
    The Guam War Claims Commission report, published in 2004, 
clearly stated that there was an obvious absence of parity in 
the administration of war claims of the people of Guam.
    Honorable congressmen, where there is lack of parity in the 
official statement of people, there is an absence of justice 
and, more seriously, there is the presence of injustice.
    The Chamorro people have always demonstrated their faith in 
American democracy and loyalty and patriotism to the U.S. Our 
sons and daughters have the highest per capita percentage of 
enlistment in the U.S. military service.
    On a per capita basis, more of her sons have made the 
ultimate sacrifice in the Vietnam conflict and the continuing 
war in the Middle East. We have never wavered in our sense of 
loyalty and allegiance to our great Nation.
    That faith, loyalty and patriotism will soon be tested 
again. Despite recent indicators of growing discontent and 
questions relating to the truthfulness and accuracy of 
pronouncements by the Department of Defense (DOD), current 
surveys indicate that our people continue to support that 
promised military buildup and relocation of the 3rd Marine 
Expeditionary Forces from Okinawa, Japan to Guam.
    There is no doubt that the buildup will impact the very 
lives of our people and will substantially change our social 
and cultural traditions, our environment and our political and 
economic way of life. We know that our lifestyles, customs, 
traditions, and our language as we know it today will change.
    But we are willing to accept it because we love our Nation. 
And we love and cherish the freedom its flag guarantees and the 
prosperity it promises.
    Those of us who have experienced the tyranny and oppression 
of enemy occupation, those of us who have lived through the 
horrors of war, are prepared to accept these changes, just as 
we accepted the changes that came in the post-World War II 
years.
    But we ask that this great Nation also live up to its 
promise that this loyalty and patriotism, this willingness to 
serve, will not be in vain nor taken for granted.
    Mr. Chairman, no one must underestimate the importance of 
resolving the issues of parity, fairness and justice related to 
the administration of the war claims. Resolving these issues 
will prove beyond any reasonable doubt that America does live 
up to its promises and responsibilities.
    When Congress set up the first meritorious claims 
commission immediately after the war, it promised resolution to 
the losses suffered by people in a conflict to which they were 
but innocent bystanders.
    When Congress authorized the War Claims Commissions Review 
Commission, rather--it promised that should the commission find 
an absence of parity or injustices, that these issues would be 
resolved.
    The meritorious Claims Commission never completed the 
mandated task, and the War Claims Review Commission indeed 
found an obvious lack of parity.
    The people of Guam now ask that these issues be resolved 
expeditiously and equitably, that we may proceed and continue 
with the work of good in Guam and to America's most strategic 
and powerful bastion of freedom and democracy in the western 
Pacific.
    In our vernacular, I extend my heartfelt dangkulo na si 
yu'os ma'ase. Thank you, and may God bless you, God bless Guam, 
and God bless America.
    Mr. Chairman and members of the committee, I have with me--
but I am not going to do as I intended, just to bring to your 
attention, like he mentioned, if we could have the hearing on 
Guam, I have here a song just to that effect.
    It says, here in Guam, paradise calls you--it is a song, 
very nice song, and you will find this song in a book called 
``Bisita Guam,'' means visit Guam, written by a retired general 
of the American--of the Marine Corps--and you find that song on 
page 173 of this book.
    I also will submit as part of my testimony--I call your 
attention to a booklet--a story of a lady like 17 years old. 
Here is what happened to her. They took her from home back 
then, and she was never returned back home, and she was never 
found.
    [The information referred to is retained in the committee 
files and can be viewed upon request.]
     Mr. Barcinas. So these are some of the stories I relate to 
you, and I submit this as part of my testimony, and I hope 
someday--that the hearing will be conducted in Guam.
    Thank you, Mr. Chairman and members of the committee.
    [The prepared statement of Mr. Barcinas can be found in the 
Appendix on page 65.]
    The Chairman. Mr. Barcinas, thank you very much.
    Let me point out to the panel that the gentlelady from Guam 
has been a real champion for you. This committee has supported 
this claims matter, and it was also included in our bill, that 
passed the House, for the authorization in 2010, and your 
problem is not before this committee or the House of 
Representatives.
    I might also mention I have a personal recollection of 
having attended a military school and high school in my 
hometown of Lexington, Missouri. And a fellow high school 
student a year ahead of me was on Guam during the Japanese 
occupation, and he was quite talented and a musician, and had 
to play the piano for the Japanese on occasion.
    And I think later on he became a well-known band leader in 
both Guam and on the west coast here in America.
    We thank you very much for your testimony.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    I have just a couple of questions. Do any of the witnesses 
have an estimate of the number of claims--this is something 
that came up in our discussion, and it would have helped if I 
had had some of these answers. I hope that you might be able to 
help me--the number of claims that would be submitted if the 
legislation were adopted.
    And if so, do you know how many of those would be survivors 
of the occupation and how many descendants of survivors?
    Mr. Tamargo. Thank you, Congressman. Before I answer your 
question, I wish to point out to the committee that I brought 
copies of the Guam War Claims Review final report, if anybody 
or the committee staff or any members wish to take a copy with 
them, as well as the Foreign Claims Settlement Commission's 
annual report that explains how the commission operates and 
what claims programs it has administered over our 58-year 
history.
    It would be hard to estimate the number of claims. I would 
say that at the time of liberation there were, as one of the 
witnesses testified, approximately 20,000 people. And if you 
add the ones who died during the occupation, it probably would 
be 21,000 people.
    And many of them over the years have moved off the island 
and are located throughout the U.S. But as to the ratio of 
survivors to heirs, that would be very difficult to calculate.
    I think one of the witnesses said 9,000 survivors might 
still be living. I think it could be nine. It could be 10. It 
is, again, difficult because they don't live on Guam, and they 
are all over the U.S.--I mean, many of them have moved off the 
island.
    So based on those numbers, I would say it is 10,000--10,000 
survivors and 10,000 that have passed away.
    Mr. McKeon. Anyone else have any differing information?
    Mr. Pangelinan. No, but just to kind of gauge it, we had a 
program in Guam for Chamorros, which would be those that were 
there during--after the war, part of that 20,000, for a land 
program. And of those eligible--we had about 30,000 eligible--
about one-third applied for the land, so--and that was for a 
99-year lease on a piece of property.
    So if we were to kind of gauge that generation, which would 
be maybe one-third, so we probably would not see the entire 
9,000 remaining file claims, but it would be somewhere between 
one-third of that to, of course, the ultimate would be 100 
percent.
    So that would be the range of numbers, given the--having a 
local program of those same eligible people that have taken 
advantage of--of a program geared towards them.
    Mr. McKeon. Those would all be--both of those groups would 
be direct survivors.
    Mr. Pangelinan. That is correct.
    Mr. McKeon. But the legislation also goes to descendants. 
Do you have any kind of guess on that?
    Mr. Pangelinan. No, I would not.
    Mr. Tamargo. It would be, Mr. Chairman--I mean, 
Congressman, the--it would be impossible to calculate how many 
heirs there are. It would be simpler to look at how many claims 
there would be, because it would be one claim per survivor or--
I mean, one claim per resident of the island during the 
occupation.
    And that number is limited to the population at the time of 
the occupation, and that was 20----
    Mr. McKeon. So the most would be, then, 20,000.
    Mr. Tamargo. Yes. That would be the number of claims 
possible. Of course, it is not a guarantee that all would 
pursue their claims. Many may not pursue their claims, and that 
would be up to--hard to estimate.
    Mr. McKeon. I know that was one of the questions that came 
up with the senators. There was concern about--not so much 
about claims by survivors but descendants. You know, how would 
they--how were they harmed, and what would be the justification 
for giving a benefit to them?
    Mr. Tamargo. Well, if I may----
    Mr. McKeon. Sure.
    Mr. Tamargo [continuing]. The Guam Claims Review Commission 
included survivors in its recommendations strictly because as a 
matter of parity that is how all the other claims programs were 
administered. They all allowed for heirs to pursue the claims 
of their decedent war victim. And that was why we included it 
in the report.
    And if one wishes to, you know, achieve parity, that would 
probably be an element of parity.
    Mr. McKeon. Okay. I bring it up because I think that 
probably would be one of the problems in the other body in 
getting it passed.
    I yield back my time, Mr. Chairman. Thank you.
    The Chairman. Thank the gentleman.
    Dr. Snyder.
    Dr. Snyder. Mr. Chairman, I would be glad to let Ms. 
Bordallo go first, if I can have my time whenever----
    The Chairman. You bet.
    Dr. Snyder [continuing]. Her name comes up in the queue.
    The Chairman. The gentlelady from Guam is recognized.
    Ms. Bordallo. I thank my colleague for yielding his time.
    And I do have a few opening remarks, Mr. Chairman, and then 
I have a couple of questions.
    First, I want to thank Chairman Skelton and Ranking Member 
McKeon for convening this hearing today on a very important 
issue of the Guam war claims.
    But as our chairman mentioned, really, you are preaching to 
the choir here. This body of Congress has passed this 
legislation twice, and also when it was included in the Defense 
Authorization Act of 2010. So we are the good guys. We have to 
convince the other body of Congress.
    And I want to thank both Chairman Skelton and Ranking 
Member McKeon. You have been steadfast supporters of this 
issue, and I appreciate all your hard work during conference 
this year trying to protect the provision.
    And I also welcome our panel of witnesses. We are very 
proud of our new Assistant Secretary, Babauta, a son of Guam.
    Mr. Tamargo, who has been very, very supportive, a former 
chairman of the Guam War Claims Review Commission--and of 
course, he has got a lot of the information that I think the 
Senate has--during conference, some of the questions that they 
asked. I am sure that your expert testimony will help us today.
    And I also want to thank our senators who have traveled 
many thousands of miles, Senators Ben Pangelinan, Frank Blas, 
Jr., from the 30th Guam Legislature.
    And finally, our survivor--thank you very much, Mr. Tom 
Barcinas, for giving us some very insightful comments today at 
the hearing.
    The issue of the Guam war claims is a very sensitive issue 
for my constituents. And it is an issue that must be 
legislatively resolved by the Congress.
    The need for this Congress to take action and resolve the 
matter of Guam war claims heightens by the day. Continued 
popular support for the military buildup on Guam is tied, to a 
certain extent, to finally solving this longstanding issue for 
many of us on Guam.
    People wonder how we can spend over $14 billion in military 
construction but their suffering and patriotism during the 
Imperial Japanese occupation of Guam has yet to be fully 
recognized and redressed.
    My colleagues on this panel know about the importance of 
the Guam war claims. The issue of the Guam war claims takes the 
form of legislation H.R. 44, which carries broad bipartisan 
support in the House of Representatives.
    As I mentioned earlier, the House has now passed the bill 
on three separate occasions, twice as a bill and during the 
defense authorization. But securing the favorable concurrence 
of the other body remains the challenge before us today.
    So I am hopeful that this hearing today will illuminate 
further the facts and circumstances surrounding the occupation 
endured by the people of Guam and the injustice that they hope 
will finally be redressed by this Congress.
    This is an injustice rooted in their having been treated 
differently from their fellow Americans, as it was pointed out, 
by the Federal Government in redressing their war-time losses 
and their damages.
    The hearing today presents another opportunity to review 
this history, however painful it may be, to recount and repeat. 
We further this discussion today in the name and the pursuit of 
justice and with faith in our government and for a cherished 
principle of equal protection under the law.
    We also remain focused and determined because of the very 
findings and the recommendations of now two federal commissions 
that have independently and thoroughly examined this matter 
against all its political and legal sensitivities.
    The Commission's report speaks for itself. But this hearing 
affords us an opportunity to explore this issue in greater 
present-day context and to gain and place in the record answers 
to the questions that were posed during and leading up to the 
consideration of this issue as part of the National Defense 
Authorization Act.
    I want to thank again--I can't thank him enough--Chairman 
Skelton and our Ranking Member McKeon for agreeing to hold this 
hearing so soon. So we have our hearing out of the way. Now it 
is up to the Senate to call a hearing, and we look forward to 
that.
    I have a question that I know came up during conference, 
and this is directed to you, Mr. Tamargo. It has been stated by 
some here on Capitol Hill and in the community that H.R. 44, 
the Guam World War II Loyalty Recognition Act, would set a new 
legal precedent.
    Can you comment on whether we as a Congress should be 
concerned that if compensation is provided to the people of 
Guam for war damages that they suffered that this could lead to 
new legal precedents for future war claims and lead to a flood 
of claims from other affected people like the POWs and the 
veterans?
    Mr. Tamargo. Thank you, Congresswoman. My short answer to 
that is that it would not establish any new legal precedents 
because everything in the Guam War Claims Review Commission 
report's recommendations has precedent elsewhere in the 
previous claims programs that have existed in U.S. history.
    And furthermore, as compared to those other possible people 
that might have some sort of claim, international claims law 
treats civilians differently than it treats military claimants, 
and so this sort of--these recommendations would not be the 
same sort of situation that would apply to those other possible 
victims of the war.
    Additionally, those other claimants were covered by other 
claims programs that were conducted after the war. Some of them 
were covered as a group, not individually, but by multiple 
programs, so they could have--they did have--and they did 
pursue their own claims in the other programs that the Foreign 
Claims Settlement Commission administered.
    Ms. Bordallo. Well, thank you, Chairman. That clears up 
that issue.
    Was there anything else you wanted to add? No?
    Mr. Tamargo. No. No, that is it.
    Ms. Bordallo. All right. I have a question for Secretary 
Babauta.
    I believe that further support could have come from the 
Administration on the issue of maintaining war claims in this 
year's defense authorization bill, so can you give us a 
commitment that the Administration will make this issue a top 
priority if it is attached to next year's defense authorization 
bill?
    Secretary Babauta. Thank you very much, Congresswoman. The 
Administration, as you know, through the Department of the 
Interior, submitted two letter--or submitted letters to 
Chairman Skelton and Chairman Levin in support of keeping H.R. 
44 within the conference report of the defense authorization.
    Again, I am here testifying on behalf of the Administration 
that we continue to support the inclusion and the future 
enactment of the legislation.
    Ms. Bordallo. So this support will continue.
    Secretary Babauta. Yes, ma'am.
    Ms. Bordallo. Thank you very much, Secretary.
    And I yield back my time.
    And thank you, Congressman Snyder.
    The Chairman. Thank the gentlelady.
    Before I call Mr. Bartlett, you have touched on this, Mr. 
Babauta, and let me ask you, though, what are the differences 
between the Guam war claims program that was authorized back in 
1945 and the other World War II claims programs that were 
subsequently implemented for other Americans who suffered 
damages?
    Secretary Babauta. Mr. Chairman, I am going to pass this 
off to Mr. Tamargo, as the commission itself did a thorough----
    The Chairman. Yes.
    Secretary Babauta [continuing]. Analysis.
    The Chairman. Go right ahead, please.
    Mr. Tamargo. Mr. Chairman, I would say that the main 
difference between--or the key difference between the Guam 
Meritorious Claims Act and program as compared to the other 
claims programs was the filing period.
    The filing period for any claims program is essential. It 
is a threshold issue. If it is inadequate, then large numbers 
of claimants never get an opportunity even to file a claim, let 
alone have its merits considered.
    And the Guam Meritorious Claims Act and program had a very 
truncated filing period. It was basically seven months. And in 
today's age of communication and advertisement and 
telecommunications, claims programs typically even now have a 
year.
    Back then, during the war, and the communications problems 
that were existing, one would probably expect not even a year--
you would probably expect to have a two-year filing period for 
a sufficient number of the population to have a proper 
opportunity to file a claim.
    In the case of the Philippines, they had two years. In the 
War Claims Act, they had two years. And many of the other 
claims programs we compared this to had at least a year. So 
that was the main flaw.
    Besides that, there were also lower cash limits for 
personal injury and death than the other claims programs had, 
and they also needed congressional appropriations individually 
for all death and personal injury claims. And that doesn't 
normally happen with the other claims programs.
    So those were the main flaws and the main inequities 
between the Guam program and the other claims programs, but the 
filing period being the main one.
    The Chairman. Thank the gentleman.
    Mr. Bartlett.
    Mr. Bartlett. Thank you very much.
    Thank you for your explanation of why we need to be here 
today. I have been to Guam several times. I have seen the 
beautiful Chamorro children perform. By the way, they have the 
most beautiful skin, the most beautiful complexion, that I have 
seen anywhere in the world.
    I have read Ben Blas' book, and I am embarrassed that we 
have to be here today talking about this. We should have 
resolved this thing a long time ago.
    I don't have any questions. You know, I am enormously 
supportive of this. And again, I am embarrassed that we have to 
be here today talking about this. This should have been 
resolved a long time ago. Let's make it go away now. Thanks.
    The Chairman. Thank you.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Mr. Chairman, I don't 
want you to think I was being magnanimous when I offered 
Madeleine the time ahead of me, because she is so nice to work 
with she generally gets her way around here anyway. I thought I 
might as well let her have the time.
    Mr. Tamargo, the question Mr. McKeon brought up about heirs 
of decedents--I assume that the reason that--and Mr. McKeon 
thought of that as the obstacle in the Senate side, or one of 
the obstacles on the Senate side.
    I assume the reason that heirs would be recognized is to 
deal with this emotional issue that we have run into other 
aspects of legislating, which is you are waiting for us to die, 
that if you--I am getting a nodded head--if you recognize that 
regardless of when this thing kicks in, even the people who 
predecease the beginning date of the bill, their heirs will be 
recognized also.
    Is that the rationale for having that? I assume that is 
part of the emotion behind the----
    Mr. Tamargo. It is. I cannot speak for the emotions. I 
assume that might be----
    Dr. Snyder. Well, I got a nodded head down here from Mr. 
Barcinas, so I assume we are on track there, so----
    Mr. Tamargo. But the reason we included it in our 
recommendations, and I assume the reason it is in the report, 
is because justice--in that the other programs all had that 
element to them as well. They all included heirs.
    Dr. Snyder. Yes.
    Mr. Tamargo. And the number of heirs can be intimidating. 
Again, you shouldn't look at the number of heirs. You should 
look at the number of claims.
    Dr. Snyder. No, no, I understand. We understand.
    Mr. Tamargo. Okay.
    Dr. Snyder. Mr. Secretary, I am going to digress and take 
on another issue that you and I have talked about, which is the 
issue of the Marshall Islanders which has impact on Guam also.
    In fact, Madeleine, I was listening to a Guam radio station 
that was interviewing Secretary Babauta a few--month or two 
ago, I guess, when you were there--over the Internet I listen 
to Guam radio. And one of the things that he brought up there 
was the presence of Marshall Islanders outside of the Marshall 
Islands.
    As you know--and, Mr. Chairman, you may not know this, but 
the compact came about after World War II to recognize the 
contributions of Marshall Islanders, the Federated States of 
Micronesia and the Nation of Palau to World War II, and part of 
it was that--the nuclear testing.
    But Marshall Islanders now can come into the United States 
at will, no health inspections, and what has--the expectation 
is that a lot of them would go to Guam. A lot of them would go 
to Hawaii. And so a compact came about that gives some 
financial aid to Guam and to Hawaii and to Mariana Islands.
    The problem that we have and the challenge in Arkansas is 
we love the Marshall Islanders and they have been great, great 
contributors to Arkansas. But there are now more Marshall 
Islanders in Arkansas than any other place than the Marshall 
Islands.
    Some of them came up there back in the late 1980s and liked 
it, and word got around, and it has just been--there is now a 
consulate up there. I think you have got some--up there for the 
consulate opening.
    They have just been great, great contributors--candidates 
in the Marshall Islands have to campaign in Arkansas because 
there is so many Marshall Islanders there.
    Here is the challenge, and we want them to continue to come 
and to be free to come and--but the resources for public health 
are lacking in Arkansas. And as you may know, Marshall 
Islanders have high rates of tuberculosis. They have leprosy.
    They have other infectious diseases that we need to get a 
handle on. And they don't qualify for a lot of the federal 
programs. So I have two questions for you, Mr. Secretary.
    Number one--and Guam has experience also--I see some 
nodding heads here from our legislator. Is the amount of money 
that the Federal Government is now giving to Guam and Hawaii 
and Mariana Islands--is that sufficient to handle the impact of 
keeping our obligations to the Marshallese?
    And second, does it need to be evaluated because of places 
like Arkansas, which now has the highest population outside of 
the Marshall Islands? Do we need to revisit how we are handling 
the financial impact?
    And I ask that question in the spirit of we really admire 
and love the Marshall Islanders' contribution to Arkansas and 
America and do not want to do anything that would interfere 
with our obligations and affection for them, but we are not 
able to do as good a job as we would like to because of the 
cost.
    Mr. Secretary
    Secretary Babauta. Thank you very much, Congressman Snyder. 
And I have appreciated the conversation that we have been able 
to have over the presence of Marshallese in northwest Arkansas.
    I also appreciate the fact that you listen to Guam radio, 
especially when I am there.
    Dr. Snyder. Guam radio.
    Secretary Babauta. The question of is the compact impact 
money sufficient--I think based on the claims that have been 
submitted by the primary jurisdictions that have--that receive 
the immediate effect of compact migration, which for large 
measure is Hawaii, Guam and the Northern Mariana Islands--based 
on the claims of those governments, the $30 million that is 
currently made available for--annually for compact impact to be 
divided amongst those three jurisdictions is probably not 
sufficient in response to the claims that they have made.
    There has not been, however, I will say, a thorough 
analysis of the claims that each of them have given. But 
clearly, there is a measurable impact on those jurisdictions.
    Should it be reevaluated? The Administration every five 
years reevaluates the presence of Micronesian citizens in those 
three primary areas. For many years, for decades, there was no 
compact impact money available, and it wasn't until 2003, with 
the reauthorization of the compact with the Marshall Islands 
and Micronesia that actually $30 million became available.
    So for very many years there was no money available--very 
small pots of money got through the legislative process.
    Dr. Snyder. And Arkansas?
    Secretary Babauta. Currently, Arkansas does not participate 
in the division of compact impact money.
    Dr. Snyder. We are not allowed to, correct?
    Secretary Babauta. I believe so.
    Dr. Snyder. We are not allowed to.
    Secretary Babauta. I believe that Arkansas is not factored 
in----
    Dr. Snyder. So that is the inequity.
    Mr. Babauta [continuing]. Into the formula.
    Dr. Snyder. We have more Marshall Islands--Marshallese in 
Arkansas that any other place outside of Guam but get no impact 
money, and so I would argue that we really do need to look at a 
different way of approaching that, in fairness to everyone, 
because everyone wants to do a good job for these folks.
    Secretary Babauta. Certainly.
    Dr. Snyder. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    And just a quick opening comment and then a couple of 
questions. I recently had the opportunity to travel with the 
gentlewoman from Guam, and I come today to--in support of her 
and her efforts here.
    If there is a better spokesperson for all aspects of the 
good qualities of Guam, I don't know where they would be. 
Matter of fact, on our trip, the gentlewoman spoke so much 
about Guam we teasingly told her we didn't have an opportunity 
to talk about other things, like Fort Bragg.
    But also, based upon the soldiers that we saw from Guam, I 
am not sure so much she is a representative but royalty. 
Everywhere she went, she was adored by the good folks in Guam, 
and we appreciate the young men and women that serve in our 
Nation from Guam.
    And just a couple questions that I have. This is my first 
term here, so I am not as familiar with this question other 
than what the gentlewoman told me while we were on the trip.
    But in the 20,000--approximately 20,000 claims that may be 
there, is there a monetary amount that that would total? Has 
anybody put some numbers on that?
    And, Mr. Tamargo, I am not sure if you are the right one or 
not, but, you know, if you--if somebody has any numbers on 
that----
    Mr. Tamargo. Well, do you want to answer?
    Secretary Babauta. I don't have a definitive answer. I 
believe that the legislation calls for an authorization of 
appropriations that attempts to capture what the number of 
claims and the type of claims could amount to.
    I don't think that until the legislation is enacted, 
however, and claims are actually made that you can come up with 
a definitive number, final number.
    Mr. Kissell. And it was mentioned--I think the number was 
20,000 people in Guam at the--was it July of 1944? Is there an 
estimate of how many people in Guam lost their lives during the 
time of occupation? And anybody who might have that answer?
    Mr. Tamargo. We believe it is roughly 1,000.
    Mr. Kissell. One thousand, okay. Okay.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentlelady from California, Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman--I know that I have 
been coached by my colleague on this, and I appreciate it as 
well as all my colleagues do. We have a course out here because 
we have been to Guam with her.
    We have seen the exceptional way that she has represented 
and is so much a part and, you know, it really means a lot to 
see the response that she receives. And we just know she is 
doing a wonderful job, and I just wanted to be here to also 
support her.
    There is a question that I know has been touched on, and I 
wondered, Mr. Babauta, if you could help us to understand the 
extent to which you think that the claims issue, which is very, 
very important, really does undermine in many ways the plans 
that the U.S. government has to work toward leases and the 
buildup--military building on Guam.
    How involved is this--is that in the decisions that are 
being made and in the discussions and what role, if any, do you 
think that Congress needs to be playing?
    Secretary Babauta. Thank you very much, Congresswoman, for 
the question. I believe you are asking what sentiment does non-
enactment or non-movement of the legislation have with bearing 
on the planned program of military buildup in Guam.
    I think we have gotten a good sense from the local 
legislators here themselves that though generally there is a 
strong support for the Guam military buildup itself.
    And I think that there is a sense of what that would mean 
for Guam as it moves forward in terms of the new economy and 
jobs and so on and so forth. There is a concern that there is 
this problem that has existed for more than 60 years that has 
been viewed and analyzed by 2 different federal commissions, 
the Hopkins Commission and the Tamargo Commission, or the most 
recent commission, coming up with very similar conclusions that 
there was not parity, there was not enough time for people of 
Guam who suffered during the war to actually file a claim, and 
then later on, that the claims in and of themselves weren't at 
the same level as subsequent pieces of legislation to address 
other victims of war in a similar manner.
    So that is hard, I think, for any community to accept when, 
at the same time, you have within the next several years a very 
aggressive buildup plan to bring more Marines and more U.S. 
military presence to Guam, which, as one of the senators 
pointed out, is an agreement between U.S. and Japan which, at 
one time, of course, was Guam's occupier.
    Mrs. Davis. Well, I appreciate that. I know Ms. Bordallo 
spoke to that briefly as well.
    Mr. Barcinas, I don't know if you wanted to add anything 
more. I know that you have touched on that. But is there 
anything else that we should know?
    Mr. Barcinas. Oh, yes, I will be very happy to comment on 
that issue. Like I said in my testimony, the people of Guam now 
have been called upon again and being tested for their loyalty 
and their support of the--and I think I mentioned that recent 
surveys said--indicated that the people of Guam are supportive 
of the buildup on the island.
    But I think they would be more supportive if they think 
that the U.S. Congress will live up to that commitment and say, 
``Hey, look.'' You see, America is Guam. We need America. And I 
think I personally am in favor--like the idea of coexistence 
and work side-by-side in a win-win situation.
    And I think the people of Guam will be more--let's call it 
ready to accommodate whatever U.S.--just give us that 
indication that yes, we are together, and just give us that--
let's call it a measly $127 million--I think is what we are 
asking. Hopefully it could be more, not less.
    Mrs. Davis. Thank you. Thank you very much.
    I have 30 seconds----
    Mr. Barcinas. Thank you for the question.
    Mrs. Davis [continuing]. If I can yield to my colleague, 
Ms. Bordallo, if she wants to--well, not enough. I think you 
will be next.
    Thank you.
    The Chairman. Thank the gentlelady.
    The gentlelady from Guam has a comment or question.
    Ms. Bordallo. I just have a couple of questions I think we 
should clear up, Mr. Chairman. It would be good for--when we 
are working on this in the future.
    The two senators, if you would give me your answers to 
this. As members of the 30th Guam Legislature, can you tell me 
whether the issue of resolving Guam war claims will affect your 
decision to permit the leasing of Chamorro land trust property 
to be used by the Department of Defense as part of the buildup?
    Senator Pangelinan.
    Mr. Pangelinan. Thank you very much for that question. I 
think the issue of the military's plan for Guam is affected by 
the way Guam treats--or the United States treats Guam and the 
fairness that it treats Guam in any of these issues.
    I don't want to mislead and say that you pay war 
reparations and we will welcome everything with open arms. I 
think the military buildup has to be studied independent of 
these issues.
    They may link with the terms of the sentiment, but in terms 
of the obligations that the United States has, paying war 
reparations does not remove any obligations that they have to 
do the military buildup in a manner that is consistent with 
respecting the rights of the people of Guam and what is good 
for Guam.
    So it is not one or the other, but it certainly is going to 
assist the United States in terms of its ability to present 
itself and say, ``These are the plans we have. There are going 
to be problems with the military buildup as we have already 
seen with the current EIS (Environmental Impact Statement), and 
if we pay reparations we don't have to resolve those 
problems.''
    Those problems still have to be resolved, have to be dealt 
with in that manner. And the taking of land--of lands that have 
been given back, to be taken right back after 45 years, where 
the people don't have the use of those properties, and not 
adequately compensated, is going--is another issue.
    There are many issues between the people of Guam and the 
United States Government, and war reparations is but one of 
them. And it has got to be in terms of fairness and equity that 
we have to deal with it in terms of accepting--both sides 
accepting their obligations to this country.
    And we are ready to do ours, as we have always demonstrated 
we have. It is the United States that has failed to demonstrate 
its commitment to fairness and equity in the treatment of the 
Chamorro people over the years.
    Ms. Bordallo. Right. Well, I think I want to make myself 
clear. I didn't say taking of the lands. I said leasing. And so 
your answer would still be the same. It depends on----
    Mr. Pangelinan. That is correct. I think that----
    Ms. Bordallo. All right.
    Mr. Pangelinan [continuing]. The current plans by the 
military says that they are going to reserve the federal lands 
that are available for the military expansion and not take 
the--not use those properties----
    Ms. Bordallo. Right.
    Mr. Pangelinan [continuing]. But they want the local 
properties that are under the control of the government of 
Guam. Why would they want more property?
    They currently have federal property that they are not 
going to develop and they are going to leave in the inventory. 
Why would they want to come and take the properties we have?
    Ms. Bordallo. Well, I am not so sure they are going to be 
leasing Chamorro trust property. I think they are really 
looking at private property, is what I understand.
    Senator Blas, do you want to----
    Mr. Blas. Thank you. Thank you, Madam Congresswoman. And 
yes, we all share the same sentiment here, that, you know, the 
war reparations, the war payments, is probably the single most 
morally significant issue that is faced, when you start to look 
at it in the context and the pretext of what is happening with 
the military buildup.
    And I have to agree with my colleague here that the--you 
know, that is not--it is not just the one only--one and only 
issue. You know, there are other issues. The discussion 
earlier----
    Ms. Bordallo. I understand, but I just asked that one 
issue----
    Mr. Blas. And it will have an effect. It does have an 
effect on whether or not, you know, I as a legislator and 
representing my constituents would see--look fairly and look on 
the issues and concerns with regard to the utilization of the 
Chamorro interests if war claims have not been resolved.
    Ms. Bordallo. Thank you.
    And one final question for Mr. Barcinas.
    This came about when we were in conference over the war 
claims with the Senate. And they wanted me to compromise, which 
I did not. So in your opinion, should Congress limit 
compensation for war damages to the living survivors of Guam--
the World War II occupation--and exclude the descendants? Your 
answer?
    Mr. Barcinas. Thank you so very much for asking--bringing 
that point up. No. I don't want no limit. I don't want no 
separation. And I will tell you why, and I feel very, very 
strongly about this.
    It is not my grandfather's fault, it is not my father's 
fault, for not being given whatever compensation is due to him. 
And so that if it ever is--look, I am a survivor.
    And if I don't get that compensation before I pass on, I 
think that the government of the United States owes my 
descendants or my heirs whatever there is coming to me, Madam 
Congresswoman.
    And you know what? It is American law. Assuming now my 
father dies, he has an estate. And you know what? If my father 
owes tax to the government of Guam or the Federal Government, 
you know what happens?
    I would like to have it but I cannot get hundred percent of 
that because under probate law that property or real estate 
or--will be probated and he will--he would be--the estate would 
be required to pay whatever that is to the government.
    So for the same token, whatever that is owed to my dad 
should come to me, and whatever that is due to me, owed to me, 
if I pass on, is--goes to my heirs. Simple as that. It is 
fairness.
    Ms. Bordallo. Thank you. Thank you very much.
    Mr. Barcinas. Yes, ma'am. Thank you for that question.
    Ms. Bordallo. Thank you very much.
    And, Mr. Chairman, before I close off, I just want to thank 
you and Mr. McKeon and all of my colleagues for supporting me 
in this measure, and we will look forward to having a hearing 
with the Senate in the near future.
    Thank you very much, and I yield back.
    The Chairman. Thank the gentlelady.
    The gentlelady is right. The Senate did commit to a hearing 
on this subject. We appreciate the panel for being with us, and 
I know some of you made a long, long trip to be with us. It is 
awfully good of you to do that. And frankly, it is very 
helpful.
    No further questions? We are adjourned.
    [Whereupon, at 2:45 p.m., the committee was adjourned.]



=======================================================================




                           A P P E N D I X

                            December 2, 2009

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 2, 2009

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            December 2, 2009

=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            December 2, 2009

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. Has the issue of Guam war claims generally, or more 
specifically of H.R. 44, been addressed at federal interagency meetings 
that focus on coordination for the Guam build-up? More specifically, 
has this issue been addressed in terms of what impact the legislation 
has on public support for the build-up? If not, is this an issue that 
will be addressed at any future federal interagency meeting?
    Secretary Babauta. To date, H.R. 44, the Guam World War II Loyalty 
Recognition Act, has not been discussed in a meeting of the Interagency 
Group on Insular Areas (IGIA). Because the issue is being further 
considered by the Congress, the Guam World War II Loyalty Recognition 
Act will be on the agenda of the IGIA at its next meeting in late 
February 2010. It has, however, been reviewed by the Administration as 
reflected in the letter submitted to the Committee on H.R. 2647, the 
National Defense Authorization Act for Fiscal Year 2010, and testimony 
presented on this issue on December 2, 2009.
    Ms. Bordallo. Can you comment on the rationale as to why the United 
States should pay for Guam War claims and not Japan?
    Mr. Tamargo. The Japanese cannot be held responsible for any 
further payment of reparations for World War II wrongs committed 
against Americans, including the World War II claims of the American 
residents of Guam, because the terms of the 1951 Treaty of Peace 
released the Japanese from such responsibility.
    At the same time, notwithstanding that the actual funding to pay 
those Guam claims will come from taxpayer funds, it could be argued 
that the funds are, in some sense, traceable to the funds derived from 
the postwar liquidation of the Japanese and German assets frozen at the 
beginning of World War II. Those Japanese and German funds were lumped 
together and distributed by the Department of the Treasury, pursuant to 
the various War Claims Commission and Foreign Claims Settlement 
Commission claims programs. No distinction was drawn between Japanese 
and German responsibility for any particular claim or set of claims. 
(This contrasted with the funding of war claims against the Axis 
countries Hungary, Romania, and Bulgaria. Title III of the 
International Claims Settlement Act of 1949 mandated separate funds, 
derived from the respective countries' frozen assets, to cover claims 
against each of those countries.) Insofar as the Foreign Claims 
Settlement Commission is aware, it has not been possible to determine 
whether all of the proceeds from liquidation of the Japanese and German 
assets have in fact been expended. Therefore, in this sense, it could 
be said that these Guam claims would be paid with Japanese funds.
    Ms. Bordallo. In previous war claims programs administered by the 
United States, is it typical for an Administration to request funds for 
the claims program in its annual budget request to Congress prior to 
the authorization of the program by the Congress and the subsequent 
approval of valid claims under that program?
    Mr. Tamargo. The Administration has not requested funding to pay 
claims under any program of the nature currently contemplated for the 
residents of Guam, prior to the Foreign Claims Settlement Commission's 
evaluation of the claims. This is necessarily so, as it would be nearly 
impossible to know how much funding to request.
    There have been a few claims programs in which Congress 
appropriated funds to pay claims after it had conferred authority to 
adjudicate the claims on a commission, but before the commission had 
evaluated specific claims. These claims programs arose out of post-
World War II conflicts and involved inadequate rations and inhumane 
treatment of American servicemen held as prisoners of war.

                                  <all>

</pre></body></html>
